March 4, 2021

VIA ELECTRONIC FILING

Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543

Re: Kansas Natural Resource Coalition v. Department of the Interior, et al., Case No. 20-1195
Dear Clerk of the Court:
I represent Petitioner Kansas Natural Resource Coalition in the above-referenced
matter.
In accordance with Rule 37.2(a) of the Rules of the Supreme Court of the United States,
Petitioner hereby grants blanket consent to the filing of amicus curiae briefs in this
matter.
Thank you.
Sincerely,

Jonathan Wood
Counsel of Record for Petitioner
cc: Ms. Elizabeth B. Prelogar
SupremeCtBriefs@USDOJ.gov

3100 Clarendon Blvd., Ste. 610, Arlington, VA 22201 • plf@pacificlegal.org • 202.888.6881 • pacificlegal.org

